                                                                     Case Closeout-




MEMORANDUM

Date:                  September 16. 1999

To:

From:




-
Re:


Background

We received an allegation tha                                 ere using NSF &ding for
work on a commercial veriture,                                 alleged that students
employed by                        ere  charging their time to a NSF project while actually
working full-time or e pr~vatecompany.l e g e d l y signed these
false time cards. In exchange for their work, t e emp oyee were given stock options in


Investigation

We referred these allegations toem
                                 nhtej*t-al                                Audit
Department. The Audit Department performed an analysis of the ~lgctricalEngineering
and Computer Sciences payroll, interviewe-    .    .        d the students involved,
and revie-tock                records.

Findings

After review of these items, it was determined t                        ce to support the
                           were used to support                         There was also no
                                                                         compensation for
doing
